August 18, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Regatta Annex Lease
         (Report Number SA-AR-08-011)

This report presents the results of our review of the Regatta Annex Lease (Project
Number 08YG013SA002). Our objective was to determine whether U.S. Postal Service
management made a prudent facility investment when entering into the 5-year lease
renewal at the Regatta Annex in Richmond, California. We conducted this self-initiated
review to assess the financial risk associated with the lease renewal. Click here to go to
Appendix A for additional information about this review.

Conclusion

Postal Service management did not make a prudent investment decision when they
renewed the Regatta Annex lease for 5 years. Management in the Pacific Area and
Bay Valley District renewed the lease although the facility was not needed for future
Postal Service operations.

Renewal of Regatta Annex Lease

Bay Valley District management ended mail processing operations at the Regatta
Annex in October 2007, approximately 30 days before the original lease expired.
Although the facility was no longer needed for Postal Service operations, Pacific Area
management renewed the 5-year lease. This occurred because:

    •    Managers in the Pacific Area, Bay Valley District, and Pacific Facilities Service
         Office (FSO) did not properly coordinate to ensure the Regatta Annex lease
         renewal was a prudent investment decision for the Postal Service.1




1
  Administrative Support Manual (ASM) requires organizations that no longer need a leased facility to submit Postal
Service (PS) Form 7437, Facilities Services Request, to notify the responsible FSO. These requests must be
submitted in a timely manner to allow the FSO to take action according to the lease’s provisions.
Regatta Annex Lease                                                                                       SA-AR-08-011




    •    Bay Valley District managers did not establish a formal review committee to
         ensure facility investment decisions reflected the best use of Postal Service
         resources.2

    •    FSO officials did not adequately explore and identify leasing alternatives in
         response to the planned closure of the Regatta Annex.3

When the lease was renewed in August 2007, management was obligated to pay
approximately $2,050,938 over the next 5 years. Additionally, the Postal Service
assumed the inherent risk and liability associated with a vacant building.4

In June 2008, during our audit work, Pacific Area officials negotiated a buyout
agreement to terminate the remaining Postal Service lease obligation for the Regatta
Annex effective July 1, 2008. Management is obligated under the buyout agreement to
pay $621,964, which we identified as unrecoverable questioned costs. Click here to go
to Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Pacific Area Operations, in coordination with the
Vice President, Facilities:

    1. Require the Pacific Area, Bay Valley District, and Facilities Service Office
       management to coordinate future leasing efforts to help ensure that investment
       decisions for leasing facilities are prudent.

Management’s Comments

Management agreed with the recommendation and stated they must make prudent
decisions on facility investments when entering into lease agreements to ensure they
are cost-effective investments. Facilities management stated that they did not agree
that a prudent decision was not made. Management stated they have established
internal controls to effectively manage facility investments in the Pacific Area.
Specifically, they are requiring Pacific Area personnel to provide oversight and
assistance to districts and facility service offices to ensure facility leases are cost-
effective and reflect the best use of agency resources. However, management did not
provide the date they implemented corrective actions.




2
  Handbook F-66C strongly recommends review of field-sponsored projects by a work group, functional review team,
or field investment committee (FIC). In October 2007, the Bay Valley District formed an FIC, partly to recommend
action to the District Manager on lease renewals. Because the Bay Valley District established an FIC, we are not
making additional recommendations to the Vice President, Pacific Area Operations, on this issue.
3
  The Pacific FSO provides real estate services, including planning, leasing, and purchasing of facilities, to the Pacific
Area.
4
  Inherent risks include unauthorized entry, theft, and vagrancy. Liabilities include the responsibility for future utility
bills, taxes, maintenance, and personal injury.


                                                             2
Regatta Annex Lease                                                          SA-AR-08-011




Management stated the U.S. Postal Service Office of Inspector General (OIG) modified
the scope of work. Further, Pacific Area management stated they specifically requested
the OIG examine the cost savings associated with the area’s subsequent relocation and
consolidation of the Regatta Annex operations, which resulted in savings of $2.7 million
in fiscal year 2008 to date. Management’s comments, in their entirety, are included in
Appendix F.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions taken should resolve the issue identified in the report.

The OIG did not change the scope of the audit and did not agree to examine the cost
savings associated with the area’s subsequent relocation and consolidation of the
Regatta Annex operations. We agree the move from Regatta may have resulted in
costs savings to the Postal Service. However, management renewed the 5-year lease
at a time when they knew, or should have known, that the facility was not needed for
future operations. The $2.7 million cost savings could have been increased had
management not renewed the lease.

We recommend the Vice President, Facilities:

   2. Require responsible Pacific Facilities Service Office personnel to immediately
      explore and identify leasing alternatives when notified of changes in facility
      requirements.

Management’s Comments

Management agreed with the recommendation but indicated there are adequate policies
and procedures currently in place to address potential changes in requirements.
Management stated they recognized there was a lack of coordination between the FSO,
Pacific Area, and Bay Valley District, and that policies and procedures were not closely
followed because of an inadvertent withholding of information at the FSO, all of which
factored into this situation. Additionally, management stated they have reviewed the
current policies and procedures with the Real Estate group at the Pacific FSO and are
confident this, combined with internal area and district controls, will help eliminate the
potential for oversight in the future. In supplemental correspondence, management
stated they met with the Real Estate group at the Pacific FSO on August 4, 2008.

Management disagreed with the $621,964 identified as unrecoverable questioned costs
and stated the early termination buy-out agreement would result in unrecoverable lease
costs of $196,397.




                                            3
Regatta Annex Lease                                                        SA-AR-08-011




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
management’s corrective actions should address the intent of our recommendation and
resolve the issue identified in the report. However, management’s assessment of
unrecoverable costs did not include $214,022 in unrecoverable rent from December 1,
2007 to June 30, 2008 and did not include related costs for utilities, taxes, and
applicable brokerage fees for a total of $621,964.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We will report $621,964 in unrecoverable questioned costs in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilitiies, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: William P. Galligan
    Drew T. Aliperto
    Tim J. Perez
    Diana K. Alvarado
    Katherine S. Banks




                                           4
Regatta Annex Lease                                                                                    SA-AR-08-011




                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has occupied the leased space at the Regatta Annex since 1994.
The Regatta Annex was originally used to stage mail transport equipment. It was
subsequently converted to accommodate bulk mail processing operations,
supplementing the San Francisco Bulk Mail Center’s operations, and was later used to
perform other mail processing functions.

A renegotiated lease for the Regatta Annex began on December 1, 2002. The lease
contained a 5-year renewal option at a cost of $366,895 per year, which is
approximately 40 percent above fair market value (FMV). To exercise the renewal
option, the Postal Service was required to send written notice to the lessor at least
90 days before the end of the original lease term on November 30, 2007.

The 5-year lease renewal option for the Regatta Annex was exercised on August 28,
2007, and the new lease term began on December 1, 2007. Postal operations at the
Regatta Annex ended on October 27, 2007. However, Postal Service specific
equipment remained at the Regatta Annex for depostalization.5 Click here to go to
Appendix C for a timeline of events leading to the renewal of the Regatta Annex lease.
Also, click here to go to Appendix D for photographs of the Regatta Annex.

CRITERIA

Postal Service Administrative Support Manual, September 27, 2007.
The ASM addresses facility requirements and planning, including facility space
planning, real estate, design and construction, and preparation of Decision Analysis
Reports. It outlines the responsibilities for continued occupancy of leased facilities,
outleasing, and subleasing. It also describes responsibilities for developing excess or
underutilized space in existing owned and leased facilities that are not currently being
used or are being held for future operational requirements, or alternatively, for disposing
of those facilities.

Handbook F-66, General Investment Policies and Procedures, October 11, 2007.
Handbook F-66 provides requirements for ensuring that the capital and expense
investments of the Postal Service provide the necessary facilities, vehicles, and
equipment to meet its goals for customer and employee satisfaction and revenue
generation while ensuring accountability, credibility, and competitiveness. The policies


5
  Depostalization refers to removing all postal-specific items from a vacant facility and restoring the facility to its
condition before it was used by the Postal Service. Two Small Parcel Bundle Sorters and other mail processing
equipment remained at the Regatta Annex as of April 16, 2008. Postal Service officials stated during our exit briefing
that although mail processing was discontinued in October 2007, the 5-year renewal was necessary for
depostalization of the Regatta facility.




                                                           5
Regatta Annex Lease                                                                SA-AR-08-011




and procedures must be followed closely to ensure that decision-makers have the
information they need to make informed investment decisions.

Handbook F-66C, Field Investment Policies and Procedures, April 13, 2006.
Handbook F-66C provides requirements to ensure field-sponsored investments support
the strategic objectives of the Postal Service, make the best use of available resources,
and establish management accountability for investment decisions. Postal Service
personnel must apply prudent business sense for field-sponsored investments. The
handbook also contains policies and procedures for field investments to ensure projects
reduce costs in keeping with the Strategic Transformation Plan 2006 – 2010, and
guidelines for investment projects that include the leasing of facilities, equipment, or
systems.

Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property
Acquisitions and Related Services, October 2006.
Handbook RE-1 provides guidance to Postal Service personnel, suppliers, and the
public about the authority, responsibility, and policies of the Postal Service with respect
to supporting Postal Service needs to acquire, manage, and dispose of real property
and related rights and interests. The policy requires management to dispose of excess
real property under terms and conditions that provide the greatest value to the Postal
Service.

Implementing the RE-1 in Postal Real Estate Actions, November 2007.
This guidance provides procedures and practices for postal personnel who acquire,
manage, and dispose of real property in accordance with Handbook RE-1. The FSO
must notify the requiring organization6 when a lease is scheduled for expiration, and the
requiring organization must notify the FSO if it does not wish to extend the lease.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service management made a prudent
facility investment when entering into the 5-year Regatta Annex lease renewal.

To accomplish our objective, we interviewed Pacific Area and Bay Valley District
officials, including officials from the Pacific FSO, to gain an understanding of the events
leading to the renewal of the Regatta Annex lease. We reviewed Postal Service
policies and procedures for leasing facilities and related documents surrounding the
lease renewal. We estimated the monetary impact associated with the 5-year renewal
of the Regatta Annex lease before and after the termination agreement. Click here to
go to Appendix E for our monetary impact calculation after the termination agreement.

We conducted this review from April through August 2008 in accordance with generally
accepted government auditing standards and included such tests of internal controls as

6
    Requiring organizations include Pacific Area, district, or field operations.


                                                                6
Regatta Annex Lease                                                           SA-AR-08-011




we considered necessary under the circumstances. Those standards require that we
plan and perform the review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our objective. We discussed our observations and conclusions with
management officials on June 27, 2008, and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, dated March 31, 2004). The OIG assessed the operations at
the Oakland International Service Facility (ISF) and the Regatta facility. The OIG
concluded that military surface mail processed at the Regatta facility could be
processed more efficiently at the Oakland ISF. Further, the Postal Service could avoid
facility costs of approximately $3.4 million over 10 years by closing the Regatta facility.
Management agreed with our finding and recommendation except that Building 512
would be closed instead of the Regatta facility. Management indicated that Building 512
was similar to the Regatta facility with regard to operating cost.




                                             7
Regatta Annex Lease                                                                                    SA-AR-08-011




                                 APPENDIX B: DETAILED ANALYSIS

Regatta Annex Lease

The Postal Service renewed a 5-year lease for a facility that was not needed for future
Postal Service operations. This occurred because:

    •    Pacific Area, Bay Valley District, and Pacific FSO officials did not properly
         coordinate leasing efforts to ensure that the Regatta Annex lease renewal was a
         prudent investment decision.

    •    Bay Valley District officials did not establish a formal review committee to ensure
         facility investment decisions made the best use of Postal Service resources.

    •    FSO officials did not adequately explore leasing alternatives in response to the
         planned closure of the Regatta Annex.

The Bay Valley District Senior Plant Manager and the Pacific Area Manager Operations
Support (MOS) instructed Pacific FSO officials to exercise the 5-year renewal option.
The Pacific Area MOS stated he wanted to renew the lease to support mail processing
operations during the 2007 Christmas peak season. However, operations were
discontinued at the Regatta Annex in October 2007,7 and as of June 2008, the facility
was still vacant and in the process of depostalization.

During our fieldwork in April 2008, FSO officials stated they did not know the Regatta
Annex would be closed until the day after they renewed the lease. FSO officials further
stated that if Pacific Area officials had informed them of the Regatta Annex closure,
FSO could have attempted to renegotiate a lease extension or month-to-month
occupancy.

During our exit briefing with Postal Service officials on June 27, 2008, FSO officials
stated they were informed of the planned closure of the Regatta Annex and discussed
the lease renewal with Pacific Area officials before exercising the option to renew the
lease.

Further, we determined that on August 23, 2007, a representative of the owner of the
Regatta Annex informed the Pacific FSO of the owner’s willingness to negotiate a
1-year extension for the Regatta Annex lease. However, when we met with FSO
officials on June 27, 2008, they stated they were not aware of this, and stated they
attempted to negotiate month-to-month occupancy but were unable to secure an
agreement with the lessor.



7
 Mail volume reports provided by Bay Valley District officials, indicate mail processing was discontinued at the
Regatta Annex in October 2007.


                                                           8
Regatta Annex Lease                                                         SA-AR-08-011




When the lease was renewed in August 2007, management was obligated under the
lease to pay approximately $2,050,938 over the next 5 years. Additionally, the Postal
Service assumed the inherent risk and liability associated with a vacant building.

In June 2008, during our review, Pacific Area officials negotiated a buyout agreement to
terminate the remaining Postal Service lease obligation for the Regatta Annex effective
July 1, 2008. Under the buyout agreement, management is obligated to pay $621,964,
which we identified as unrecoverable questioned costs.




                                           9
Regatta Annex Lease                                                                                  SA-AR-08-011




     APPENDIX C: TIMELINE OF EVENTS LEADING TO THE LEASE RENEWAL

December 13, 2005: The Pacific FSO contracted for an appraisal of the Regatta Annex
lease renewal in accordance with Postal Service policy.8

April 5, 2006: The Pacific FSO requested information from the Bay Valley District about
the need for additional space at the Regatta Annex.

November 24, 2006: The Pacific FSO notified Bay Valley District officials that according
to the appraisal, rent for the Regatta Annex lease renewal was approximately
47 percent above FMV.9

May 21, 2007: The Pacific FSO informed the Bay Valley District of the deadline to
renew the lease and recommended leaving the Regatta Annex by November 30, 2007,
if the district decided to move.

June 1, 2007: The Bay Valley District Senior Plant Manager informed the Pacific Area
Finance Manager, the Bay Valley District Manager, and Pacific FSO officials of his
intent to retain the Regatta Annex for Priority Mail operations.

June 6, 2007: The Pacific Area Finance manager discussed short-term leasing
alternatives with the FSO. The FSO responded on June 7, 2007, stating that a
termination clause would increase the rent. The FSO did not respond to the Pacific
Area Finance manager with information about short-term lease alternatives. However,
the FSO stated the Bay Valley District Senior Plant Manager wanted to continue leasing
the Regatta Annex and stated that the lease agreement provided for subleasing if the
facility was not needed.

July 19, 2007: The Bay Valley District Senior Plant Manager stated he had a need for
the Regatta Annex, discussed his plans with the Pacific Area MOS, and stated that he
was waiting for direction from the Pacific Area MOS on whether to retain the annex or
pursue other options. In addition, the Pacific Area Finance Manager reminded the
Pacific Area MOS the lease would expire on November 30, 2007, and a decision to
move or remain at the Regatta Annex was necessary before August 30, 2007.

August 1, 2007: The Pacific FSO informed the Bay Valley District that, according to the
lease contract, the landlord must receive notice of intent to renew the lease no later
than August 31, 2007. Otherwise, the lease would terminate on November 30, 2007.
The Pacific FSO informed the Bay Valley District the renewal option would be exercised
in the last week of August 2007 unless they received other directions from Postal
Service management.


8
  Guidance in Implementing the RE-1 in Postal Real Estate Actions requires a contract appraisal for leases with
annual rent of more than $150,000.
9
  The Postal Service would be obligated to pay approximately $146,700 per year more than FMV.


                                                          10
Regatta Annex Lease                                                                                    SA-AR-08-011




August 8, 2007: The Pacific Area MOS received a request from the Bay Valley District
Senior Plant Manager to relocate mail processing equipment from the Regatta Annex to
the Oakland Processing and Distribution Center.10

August 23, 2007: A representative for the owner of the Regatta Annex informed the
Pacific FSO that the owner was willing to negotiate a 1-year extension for the Regatta
Annex.

August 24, 2007: The Pacific Area MOS instructed Pacific FSO officials to exercise the
5-year renewal option.

August 28, 2007: Pacific FSO officials exercised the 5-year lease renewal option for the
Regatta Annex.

August 29, 2007: The Bay Valley District Senior Plant Manager informed the Pacific
FSO that operations would be moving out of the Regatta Annex by December 31,
2007.11 Pacific FSO officials stated that since the lease had been renewed for an
additional 5 years, they would attempt to sublease the space or negotiate out of the
contract.

February 8, 2008: The Postal Service initiated actions to determine the feasibility of
subleasing the Regatta Annex. As of June 2008, the Postal Service had not subleased
the Regatta Annex.

July 1, 2008: Pacific Area Officials negotiated a buyout agreement to terminate the
Postal Service’s remaining lease obligation for the Regatta Annex effective July 1, 2008.




10
  This was the first indication that mail processing operations would relocate from the Regatta Annex.
11
  After notification was provided by the Bay Valley District Senior Plant Manager, FSO officials stated they could not
negotiate a month-to-month agreement and had no choice but to exercise the renewal option because the FSO was
not timely informed of Bay Valley District’s plans for the Regatta Annex.


                                                           11
Regatta Annex Lease                                                                      SA-AR-08-011




              APPENDIX D: PHOTOGRAPHS OF THE REGATTA ANNEX




                       Photograph taken April 16, 2008, by OIG staff showing
                               the Regatta Annex docking entrance.




         Photograph taken April 16, 2008, by OIG staff showing interior of the Regatta Annex.
                    Two Small Parcel Bundle Sorters were awaiting disposition.




                                                  12
Regatta Annex Lease                                                            SA-AR-08-011




    APPENDIX E: CALCULATION OF UNRECOVERABLE QUESTIONED COSTS
                   AFTER TERMINATION AGREEMENT

Objective of Methodology

Our objective was to estimate the monetary impact associated with the 5-year renewal
of the Regatta Annex lease after termination agreement.

Overview of Methodology

The methodology consisted of six parts:

•     We determined the annual cost of rent, taxes, and electricity for the Regatta
      Annex.

•     We applied 7 months of the annual rent from the contract that was in effect
      (December 2007 to termination in June 2008).

•     We used the 2007 lease contract to determine the ratio of taxes to overall lease
      costs. We applied 7 months of the calculated annual tax amount to 2008, based
      on the 2008 rent costs from the current contract.

•     We obtained the six most current electricity bills and annualized the result, then
      applied 7 months of the annualized amount to 2008.

•     We included the buyout amount from the contract.

•     We included the 4.5 percent brokerage fee.

Justification

If the Postal Service had not renewed the Regatta Annex lease, the costs associated
with the lease could have been saved.

Calculation of Monetary Impact (Discounted Cash Flow)

Because the entire financial impact of the Regatta Annex lease renewal occurred in
2008, the impact is stated in present-day dollars and not discounted.




                                             13
Regatta Annex Lease                                      SA-AR-08-011




                      APPENDIX F: MANAGEMENT’S COMMENT




                                     14
Regatta Annex Lease        SA-AR-08-011




                      15
Regatta Annex Lease        SA-AR-08-011




                      16
Regatta Annex Lease        SA-AR-08-011




                      17
Redacted
Redacted
Redacted
Redacted
Redacted
Redacted
Redacted
Redacted
Redacted
Redacted
Regatta Annex Lease        SA-AR-08-011




                      28
Regatta Annex Lease        SA-AR-08-011




                      29
